 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




QUESTIONABLE PRACTICES INVOLVING
    NEBULIZER DRUG THERAPY
                     OFFICE     OF INSPECTOR          GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law
95-452, is to protect the integrity of the Department of Health and Human Services
programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary
of program and management problems and recommends legislative, regulatory, and
operational approaches to correct them.



                      Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the
Office of Inspector General. It conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the
Congress, and the public. The inspection reports provide findings and
recommendations on the efficiency, vulnerability, and effectiveness of departmental
programs.

The OEI’S Philadelphia Regional Office prepared this report under the direction of
Robert A. Vito, Regional Inspector General. Principal OEI staff included:

Region
                                          Headquarters

Robert A. Katz, Project Leader
                  Mary Beth Clarke, Program Specialist

Amy Sernyak, Lead AnaZyst
                       Brian Ritchie, Technical Suppoti Staff

Linda M. Ragone, Program AnaZyst
                Barbara Tedesco, Statistician

Cynthia Hansford, Program Assistant
             Linda Moscoe, Technical SuppoH Staff

Karen Folk, Intern

Ethan Shaw, Intern

Patti Loyack, Intern


Office of Audit Services


David J. Graf, Advanced Techniques
 Sta&, Philadelphia
Lourdes Puntonet, Auditor, Atlanta

              EXECUTIVE                         SUMMARY

PURPOSE

This report identifies questionable practices relating to nebulizer drug therapy
provided to Medicare beneficiaries under Part B of the Medicare program.

BACKGROUND

A nebulizer is a type of durable medical equipment (DME) through which
prescription inhalation drugs are administered. Nebulizers andassociated drugs are
covered by Medicare “if the patient’s ability to breathe is severely impaired.”

Medicare allowances for nebulizer drugs remained relatively stable during the years
1990 through 1992, never exceeding about $78 million annually. In 1993, allowances
increased to about $169 million and rose to about $226 million in 1994, an increase of
almost 200 percent from 1990. Albuterol sulfate 0.083% is the most commonly
reimbursed nebulizer drug code. This drug accounted for $150 million, or more than
65 percent, of the total dollars allowed for all nebulizer drugs in 1994. While
Medicare payments for nebulizer drugs have increased in recent years, payments for
nebulizer equipment have actually decreased. Allowances for nebulizer equipment
dropped from $131 million in 1993 to $40 million in 1994. This maybe due in part to
Medicare’s capped rental policy for certain types of nebulizer equipment.

To review Medicare payments for nebulizers and associated drugs, we utilized a
random sample of nebulizer claims focusing on albuterol sulfate 0.083%. We also
analyzed data from the Health Care Financing Administration’s (HCFA) National
Claims History File. We sought to determine 1) if Medicare reimbursed nebulizer
equipment when a beneficiary had no corresponding nebulizer drug claims, and 2) if
beneficiaries were receiving more than one type of nebulizer drug at the same time.

FINDINGS

Medicare paid for multiple inhalation drugs that when used together may be harmful
to beneficiaries.

      Medicare paid $8 million for multiple beta -adrene~”c bronchodilator   drugs that
      should almost never be taken during the same time period.

      Medicare paid an additional   $22 million for drugs that may be inappropriate   when
      taken together.

       One of HCFA k four Durable Medical Equipment Regional Cam”ers (DMERCS)
       accounted for a dkpropoti”onate share of multiple nebulizer drug allowances.
Other questionable drug provision practices may compromise beneficiaries’ care.

      Medicare beneficiaries received units of albuterol sulfate that diflered from
      amounts prescribed by their physicians.

      Prescribed dosage levels for some beneficiaries exceed medical guidelines.

      Beneficiaries do not use all of the nebulizer drugs provided   to them.

Questionable
           billing practices contribute to improper Medicare payments for nebulizer
therapy.

      Medicare allowed over $10 million for nebulizer equipment      without corresponding
      billings for nebulizer drugs.

       Suppliers billed Medicare for drug dispensing services thqy did not perform.

       Some suppliers did not collect beneficia~   coinsurance payments.

RECOMMENDATIONS

We recommend that HCFA develop a strategy to 1) eliminate the questionable and
abusive billings we encountered in this inspection, and 2) ensure that beneficiaries
requiring nebulizer therapy receive treatments that are appropriate.

As part of this strategy, we urge HCFA to implement a comprehensive coverage and
medical review policy focusing on nebulizer equipment and inhalation drugs. In
concert with these policies, the DMERCS should develop and issue guidelines to
suppliers and pharmacies outlining recommended prescribing practices for inhalation
drugs used with nebulizer equipment. To ensure compliance with the recent Medicare
policy revision prohibiting drug payments to non-dispensing suppliers, the HCFA
should take action to confirm that only appropriately licensed suppliers be permitted
to dispense drugs, bill for dispensing fees, and physically handle drug products. In
addition, the DMERCS could also provide suppliers with a reminder about Medicare
regulations prohibiting the routine waiver of beneficiary coinsurance.

If the recommendations we just outlined had been in place during the time period of
our review, Medicare could have saved up to $40 million in payments for questionable
nebulizer equipment and drugs. Although this $40 million is an estimate, we believe it
is credible since a more rigorous review of inhalation drug claims by one DMERC
resulted in savings of nearly $20 million during only a 5 month period. The savings
occurred after DMERC C implemented a review screen for claims involving both
incompatible multiple inhalation drugs and overutilization. The DMERC took the
initiative to implement this screen when concerns about Medicare payments for
inhalation drugs in this region were raised by HCFA and the OIG after reviewing data
compiled by the Statistical Analysis Durable Medical Equipment Regional Carrier.
We will refer possible abusive or fraudulent claims we encountered during our review

to the fraud units responsible for handling such activities. In addition, we are planning

a multi-disciplinary review, including evaluation and investigation staff, to determine

the magnitude of inappropriate multiple nebulizer drug use as well as the

identification of suppliers employing fraudulent or abusive practices in their Medicare

billings.


AGENCY     COMMENTS


The HCFA concurred with our recommendations. They have already taken steps to

institute corrective actions, including revising their policies relating to nebulizer

equipment and drugs which will take effect in April 1997. The revised guidelines

contain more stringent requirements and are aimed at curtailing improper billings such

as overutilization and billing for nebulizer equipment without corresponding billings

for nebulizer drugs. To ensure that beneficiaries receive appropriate nebulizer

therapy treatments, HCFA has clarified its guidelines to require that only licensed

entities meeting pharmacy standards established by State Boards of Pharmacy be

allowed to dispense and bill for nebulizer drugs. This change, according to HCF~

will prevent such abusive practices as supplying incompatible multiple drugs and

excessive dosages of drugs. The full text of HCFA’S comments may be found in

Appendix B.





                                           ...
                                           111
                     TABLE                     OF CONTENTS


                                                                                                                  PAGE


EXECUTIVE       SUMMARY              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..i


INTRODUCI’ION          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


FINDINGS      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...6


 �Medicare     paid for multiple drugs that maybe harmful. . . . . . . . . . . . . . . . . . . . 6


 . Other drug provision practices compromise care . . . . . . . . . . . . . . . . . . . . . . . . 8


 . Questionable billing practices lead to inappropriate payments . . . . . . . . . . . . . . 9


RECOMMENDATIONS                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...12


APPENDIXA          Point Estimates and Confidence Intervals . . . . . . . . . . . . . . . . . A-1


APPENDIX      B: HCFA Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..                    B-l

                         INTRODUCTION


PURPOSE

This report identifies questionable practices relating to nebulizer drug therapy
provided to Medicare beneficiaries under Part B of the Medicare program.

BACKGROUND

Title XVIII of the Social Security Act prescribes coverage requirements under Part B
of the Medicare program. Part B covered items and services include durable medical
equipment (DME) as well as certain outpatient prescription drugs. The Health Care
Financing Administration (HCFA) administers the Medicare program. The HCFA
designated four Durable Medical Equipment Regional Carriers (DMERCS) to process
all claims for DME, prosthetics, orthotics, and medical supplies, including nebulizers
and inhalation drugs. Effective October 1, 1993, the DMERCS replaced local carriers
which had previously processed these claims.

MedicareCoverageof NebukzerTherapy

A nebulizer is a type of DME through which prescription inhalation drugs are
administered. It consists essentially of two components: 1) a power source such as an
air compressor or ultrasonic device, and 2) a dispensing mechanism consisting of
flexible tubing, a mouthpiece, and liquid reservoir. Nebulizer drug therapy is
administered by placing a prescription inhalation drug into the reservoir of a nebulizer.
The nebulizer’s power source converts the drug into a fine spray which is inhaled by
the patient.

The Medicare Coverage Issues Manual states that nebulizers are “covered if the
patient’s ability to breathe is severely impaired.” While Medicare does not generally
pay for outpatient prescription drugs, drugs used in conjunction with a nebulizer are
covered under the program. Section 2100.5 of the Medicare Carriers Manual specifies
the covered uses of outpatient prescription drugs including drugs used in conjunction
with DME. In accordance with HCFA policy, if a beneficiary has a severe respiratory
illness or disease, Medicare will pay for any drug that transforms a nebulizer into
effective therapy for that condition. Medicare guidelines stipulate that the prescribed
drug must be used to deliver respiratory therapy, and the nebulizer must be the means
to deliver that therapy. If these conditions are met, Medicare will reimburse both the
drug and the equipment for as long as the nebulizer drug therapy is necessary.

In 1994, the DMERCS proposed a new nebulizer medical policy which focused on
specific coverage and medical necessity issues. The proposed policy outlined baseline
documentation requirements to support Medicare coverage criteria for nebulizer
therapy. In addition, the policy required trial use of a metered dose inhaler (MDI), a
non-covered device under Medicare, before nebulizer treatment would be reimbursed.
The HCFA withdrew the policy proposal in response to concerns voiced by
organizations and physicians. Primarily, these concerns centered on the possible
deterioration of a patient’s condition during the MDI trial period to the point where
an emergency room visit or hospitalization might be required.

MedicareAllowancesfor Nebuluer Therapy

Between 1991 and 1993, allowances for nebulizer equipment increased from $87
million to $131 million. However, in 1994 there was a sharp reduction in Medicare
allowances to $40 million. The decline was due in large part to an almost $100 million
decrease between 1993 and 1994 for nebulizers with compressors (HCFA Capped
Rental Code E0570). However, in contrast, allowances for portable nebulizers (Code
E1375) increased more than 700 percent from $389,047 in 1993 to more than $3
million in 1994. Portable nebulizers are not capped rental items. Medicare will pay
for only 15 months of rental for capped rental items if beneficiaries choose not to
purchase these items.

While payments for nebulizer equipment have diminished in recent years, payments
for drugs used with nebulizers have increased. Medicare allowances remained
relatively stable during the years 1990 through 1992, never exceeding about $78 million
annually.1 In 1993, allowances for 21 nebulizer drug codes increased to about $169
million and rose to about $226 million in 1994, an increase of almost 200 percent from
1990. Albuterol sulfate 0.083% (Code J7620), hereafter simply referred to as
albuterol sulfate, is the most commonly reimbursed nebulizer drug code. This drug
accounted for $150 million, or more than 65 percent, of the total dollars allowed for
all nebulizer drugs in 1994.

Pharmacies or DME suppliers use drug-specific procedure codes to claim Medicare
reimbursement for nebulizer drugs. Each DMERC determines allowances for
prescription drug codes in its respective region based on the guidelines stated in
HCFA regulations. In addition to reimbursing for the drug product, Medicare will
also pay a monthly dispensing fee of $5 when pharmacies provide drugs used in
nebulizers.

Related Work by the (ljjice of IhspectorGeneral

This report is one of a series of Office of Inspector General (OIG) inspections
concerning Medicare payments for outpatient prescription drugs in general and
inhalation drugs in particular. In 1996, we released a report entitled, Medicare
Payments for Nebulizer Drugs (OEI-03-94-O0390).     We found that Medicaid reimbursed
albuterol sulfate and other nebulizer drugs at significantly lower prices than Medicare.



    10 ffice of Inspector General, Medicare Part B - Reimbumement to Rrovidem for
Drugs Used in Conjunction with Durable Medical Equipment, A-06-92-OO079
(Washington, D. C.: U.S. Department of Health and Human Services, 1995),3.


                                            2
In a companion report called A Comparison of Albuterol Su~ate Prices (OEI-03-94-
00392), we found that many retail and mail-order pharmacies charge customers less
for generic albuterol sulfate than Medicare’s allowed price. A previously issued
report, Suppliers’ Acquisition Costs for Albuterol Sulfate (OE1-03-94-O0393), examines
how much suppliers pay for albuterol sulfate. An additional report, Appropriateness of
Medicare Prescription Drug Allowances (OEI-03-95-O0420), compared Medicare drug
reimbursement mechanisms with Medicaid payment mechanisms for 17 drugs and
found that Medicare could achieve significant savings by adopting reimbursement
strategies similar to those used by Medicaid.

The HCFA, in response to these inspections, concurred with our recommendation that
it reexamine its drug reimbursement methodologies. The HCFA agreed to explore
new reimbursement mechanisms to take into account actual drug costs and reduce
Medicare payments.

O~ration Restore lhmt

This study was conducted as part of Operation Restore Trust, an initiative combining
the forces of multiple agencies to combat Medicare and Medicaid fraud, waste, and
abuse in five States. The five States – California, Florida, Illinois, New York, and
Texas – account for 40 percent of the nation’s Medicare and Medicaid beneficiaries.
The initiative centers on services provided by DME suppliers in addition to nursing
homes, hospices, and home health agencies.

METHODOLOGY
We reviewed pertinent background information on nebulizer therapy from a wide
variety of sources including HCFA officials, medical equipment suppliers,
pharmaceutical reference books, and pharmacies. In addition, we consulted with the
DMERCS’ medical and utilization review staffs regarding nebulizer and inhalation
drug therapy coverage, medical necessity, and other technical issues such as acceptable
supplier documentation and pharmaceutical practices. We received information and
reports from the Statistical Analysis Durable Medical Equipment Regional Carrier
(SADMERC).        For guidance on recommended inhalation drug dosage and
administration practices, we used the USP Drug Information for the Health Care
Professional, the Physicians’ Desk Reference, and the product information provided in
the package insert for one brand of albuterol sulfate.

We requested information from two main sources – suppliers and beneficiaries. We
selected the suppliers and beneficiaries based on a sample of claims from a One
Percent DME Claims File developed from HCFA’S National Claims History File.
Focusing on albuterol sulfate, the nebulizer drug most frequently reimbursed under
Medicare, we selected a stratified random sample of albuterol sulfate claims from the
file. Seven strata were designated in the sampling plan: one for each of the five
Operation Restore Trust States, Puerto Rico, and a strata comprised of J7620 claims
from all other States. Service dates were confined to a 14-month period of review,


                                           .)
January 1, 1994 through February 28, 1995. Medicare allowances foralbuterol sulfate
exceeded $182 million during the 14-month period of our review, representing 68
percent of the $269 million in total allowances for nebulizer drugs. Our sample of 485
claims is statistically representative of the universe of over one million claims for
albuterol sulfate which Medicare processed during the period of our review.

SupplierInfortnutionRequests

We mailed requests for information to the suppliers that billed Medicare for the 485
sample albuterol sulfate claims. In this report, we use the term “supplier” to indicate
the entity which billed Medicare for the nebulizer drug provided to the beneficiary.
These requests covered a variety of subjects, including 1) supplier business
characteristics, 2) how the supplier obtained the nebulizer drug and delivered it to the
beneficiary, 3) description of the drug provided, and 4) drug procurement costs and
related drug costs. We asked suppliers to submit copies of documents from their files,
such as physician prescriptions, invoices showing drug procurement costs, and
beneficiary medical information, to support each sample J7620 claim.

Suppliers returned completed requests for 418 of the 485 sample J7620 claims (86
percent response rate). Some suppliers did not, however, submit copies of all of the
claim-supporting documentation that we requested. We contacted these suppliers by
telephone and letter to secure missing documentation.

BeneficiaryInformationRequeim

We mailed information requests to the Medicare beneficiaries identified in the sample
claims. We did not send information requests to deceased beneficiaries if we knew
they were deceased at the time of the mailing. Questions related to five broad areas:
1) nebulizer and inhalation drug utilization patterns, 2) health condition, 3) nebulizer
and inhalation drug characteristics, 4) ordering and receipt of inhalation drug, and 5)
efficacy of nebulizer and inhalation drug.

Two hundred and twenty-three beneficiaries or their relatives returned completed
information requests. These responses account for 307 sample albuterol sulfate claims
because the sample contains more than one claim for some beneficiaries.

We analyzed supplier and beneficiary responses to the information requests. To
detect inconsistencies and irregular practices in the provision of albuterol sulfate we
compared supplier and beneficiary responses to related questions. We examined
suppliers’ documentation to identify possible questionable billing practices and
inappropriate albuterol sulfate utilization. Percentage estimates and corresponding 95
percent confidence intervals for the supplier and beneficiary data were computed
using standard statistical formulas for a single-stage stratified random sample. Point
estimates and confidence intervals for all statistics presented in this report are
provided in Appendix A.




                                           4

Nebuli.zerDrugReview

We performed two separate analyses of data from the One Percent DME Claims File.

We sought to determine 1) if Medicare had reimbursed nebulizer equipment when a

beneficiary had no corresponding nebulizer drug claims, and 2) if Medicare had made

payments for more than one beta-adrenergic bronchodilator drug at the same time.


To identify beneficiaries who had nebulizer equipment claims without nebulizer drug

claims, we matched nebulizer equipment claims for the 14-month period (January 1,

1994- February 28, 1995) with nebulizer drug claims. Because of possible lags in

billing, we believed it would be more conservative to identify only those beneficiaries

who had no matching nebulizer equipment and drug claims in the middle 8 months

(April 1- November 30, 1994) of our review period. In addition, to ensure that

corresponding drug claims for these beneficiaries were not billed before or after the 8-

month period, we searched the One Percent DME Claims File for drug claims billed

during the 3 months prior to April 1, 1994 and the 7 months after November 30, 1994.

No such claims were located.


We also verified our findings with the DMERCS which reviewed the on-line Part B

service histories for a random sample of 100 of the 1,234 beneficiaries who had

nebulizer equipment billings without corresponding nebulizer drug billings. The

medical directors confirmed that the beneficiaries had no history of nebulizer drug

billings during the period of our review. They did find drug billings for 5

beneficiaries in late 1995 and early 1996, which were subsequent to our review period.


Medicare reimburses four categories of nebulizer drugs: bronchodilators, anti-

inflammatories, mucolytics, and antibiotics. Within the bronchodilator category, there

are two types of drugs – beta-adrenergics and anticholinergics. For our analysis of

beneficiaries receiving more than one drug at a time, we focused only on the beta­

adrenergic bronchodilator type of nebulizer drug.


To determine if Medicare had made payments for more than one beta-adrenergic

bronchodilator drug at the same time, we used the data from the DME Claims File

for our 14-month review period. We selected 12 drug codes that represent

bronchodilator drugs with beta-adrenergic stimulator effects. Using these codes, we

determined if two or more beta-adrenergic drugs were billed for a beneficiary in the

same 30-day period. We then calculated the total payment for these multiple

nebulizer drugs.


We did a separate analysis where we matched the 12 beta-adrenergic drug codes

against drug code J7699 which represents “not otherwise classified inhalation drugs.”

Code J7699 can be used to bill for at least one type of beta-adrenergic bronchodilator

drug which does not yet have a specific code. We then determined the total Medicare

payment for these matches.


This inspection was conducted in accordance with the Qzdi~ Standards for Inspections

issued by the President’s Council on Integrity and Efficiency.



                                            J
                                FINDINGS


MEDICARE PAID FOR MULTIPLE INHALATION DRUGS THAT WHEN
USED TOGETHER MAY BE HARMFUL TO BENEFICIARIES.

Medicarepaid $8 mililonfor multiplebeta-adrenagicbronchodilktordugs thatshod
almostneverbe takenduringthe same timeperiod

Medicare made payments for two or more beta-adrenergic bronchodilator drugs for at
least a 30-day period between January 1, 1994 through February 1995 for more than
10,000 beneficiaries. Medicare and its beneficiaries paid almost $8 million dollars for
these drugs during this time. Beta-adrenergic bronchodilator drugs open up or dilate
the lung’s airways by relaxing the bronchial smooth muscle. Using two beta-adrenergic
drugs during the same time period is not only ineffective but can be potentially
harmful to the beneficiary.

A majority of these beneficiaries received albuterol sulfate along with another
beta-adrenergic bronchodilator drug, such as metaproterenol sulfate or isoetharine
hydrochloride. The product information provided in the package insert for one brand
of albuterol sulfate states that “other sympathomimetic aerosol bronchodilators or
epinephrine should not be used concomitantly with albuterol.” According to DMERC
medical personnel, beta-adrenergic bronchodilator drugs such as albuterol sulfate,
metaproterenol sulfate, and isoetharine hydrochloride, when used in combination,
provide no further clinical improvement beyond that obtained through the use of only
one nebulizer drug in this category.

While these drug combinations provide no increased benefit, they can be harmful to
the respiratory, heart, and nervous systems. Use of multiple beta-adrenergic drugs can
effectively be considered an overdosage. Overutilization can lead to a loss of
sensitivity to the drugs. This can eventually result in unresponsive asthma since
breathing can no longer be improved with nebulizer drug therapy. In addition,
overdosage can lead to irregular heart beat, anginal pain, hypertension, tremulousness,
and other adverse reactions. It can even be potentially fatal, especially in a
health-compromised elderly beneficiary.

Medicarepad an additional$22 millwnfor drugsthatmuy be inappropriate
                                                                   when taken
together.

Along with the almost $8 million paid for multiple beta-adrenergic bronchodilator
drugs, another $22 million was spent by Medicare on multiple inhalation drugs for
which the level of effectiveness or harmfulness cannot be determined. The
beneficiaries for whom Medicare paid these bills received multiple inhalation drugs
including one beta-adrenergic drug and one drug that cannot be identified since it was
billed using code J7699. Code J7699 represents “not otherwise classified inhalation
drugs.” Drugs billed with this code either have no procedure code or are prescribed in


                                           6
amounts that do not fit the dosage of current codes.   These drugs can be
bronchodilators or other types of inhalation drugs.

When billing information for code J7699 was matched against other beta-adrenergic
bronchodilator drug codes, 22,500 beneficiaries were found to have received multiple
inhalation drugs. If the drugs billed to Medicare under code J7699 were beta­
adrenergic drugs, then these beneficiaries may have received drugs that were
inappropriate if used during the same time frame.

While it is possible that a beneficiary may receive multiple inhalation drugs during a
single 30-day period if their doctor makes a prescription change, multiple beta­
adrenergic drug claims for individual beneficiaries over successive months provide
evidence that makes this an improbable explanation for such widespread multiple drug
use. When individual beneficiary nebulizer drug usage was reviewed, we found
instances where multiple inhalation drugs were used over a number of months. We
also found claims for some beneficiaries for not just two beta-adrenergic
bronchodilator drugs, but up to four different inhalation drugs during the same time
period. To illustrate this point, Medicare paid over $13,000 for one beneficiary who
received four inhalation drugs over a 9-month period. Three of the drugs were beta­
adrenergics and the fourth drug could not be identified since it was billed using code
J7699.

One DMERC accountedfor a dkprophoraate shareof multiplknebzdizerdrug
allowances.

The DMERC for Region C paid over $20 million of the $30 million in questionable

multiple nebulizer drug payments. While only 27 percent of the Medicare population

resides in the area serviced by DMERC C, the region accounted for 60 percent of the

beneficiaries that received multiple nebulizer drugs. The carrier paid an average of

$1133.00 for each beneficiary receiving multiple nebulizer drugs during the 14-month

review period. This was 30 percent more than the average dollars paid by the

DMERC with the next highest average allowance per beneficiary.


The Region C DMERC not only has an unusually large share of multiple drug

payments but also accounts for 60 percent of total allowances for nebulizer drugs

during the 14-month review period. For five specific nebulizer drugs, DMERC C

made 100 percent of the Medicare payments over the 14 months.


Region C’s large share of payments appears to have continued into 1995. According

to a SADMERC statistical report for the third-quarter of 1995, DMERC C accounts

for 67 percent of the quarter’s total national allowances of $88 million for nebulizer

drugs. The report also provided evidence that while DMERC C has hundreds,

sometimes thousands, of beneficiaries using certain drugs, other regions have less than

10 beneficiaries using the same drugs. Similar to what was found during the 14-month

review period, DMERC C allowed 85 percent of the national

payments for bitolterol; 93 percent for acetylcystein; 95 percent for metaproterenol;

99percent   forisoetharine;   and 100percent   forisoproterenol   inthethird-quarterof
1995.

OTHER QUESTIONABLE DRUG PROVISION                     PRACTICES      MAY
COMPROMISE BENEFICIARIES’ CARE.

Questionable practices involving the provision of albuterol sulfate therapy may
compromise the quality of care received by Medicare beneficiaries. We are
highlighting these practices because they could adversely affect the benefits of
nebulizer therapy intended for Medicare beneficiaries.

Medicarebeneficiariesreceivedunitsof albuterolsulfatethatd~ered @m           arnoum
prescribedby theirphysicians.

Twenty-six percent of claims represents billings for units of albuterol sulfate that
differed from the units prescribed by beneficiaries’ physicians. Thirteen percent
reflects allowed units of albuterol sulfate that exceed prescribed units by between 9
and 819 milliliters (ml). The other thirteen percent of claims represents allowed units
that were between 15 ml and 495 ml less than prescribed units.

Allowed units could not be compared to prescribed units of albuterol sulfate for 36
percent of claims due to two factors: “PRN’ prescriptions, and billings processed by
pre-DMERC carriers. A number of claims were supported with prescription
documents that included a “PRN”, or “as needed”, direction. The “PRN’ direction
does not indicate a fixed amount of albuterol sulfate to be dispensed. In addition,
albuterol sulfate claims were being billed to the pre-DMERC carriers as well as the
four new DMERC carriers during the period of our review. Billing standards for
albuterol sulfate were not uniform across the pre-DMERC carriers; therefore,
suppliers were not consistently billing for units equal to the ml of albuterol sulfate
dispensed.

l%zwribed &sage levehfor some beneficiati exceed medicalguidelines.

Approximately 13 percent of claims had physicians’ orders prescribing 5 or 6 albuterol
sulfate treatments per day (more than 450 ml per month). Physicians’ orders for more
than two-thirds of these claims prescribed monthly albuterol sulfate treatments of 540
or more mls. The product information provided by the manufacturer of one brand of
albuterol sulfate advises a nebulizer dosage of 3 ml of albuterol sulfate three to four
times per day. A one month prescription for albuterol sulfate at a dosage of 3 ml
administered three or four times per day would result in 270 to 360 ml of the drug
being dispensed. “More frequent administration or higher doses are not
recommended,” according to guidelines issued by manufacturers.

Drug labeling information, provided by manufacturers and approved by the Food and
Drug Administration, presents clear and unmistakable warnings about the dangers of
overdosage. The package insert for albuterol sulfate cautions against the overuse of


                                               8
albuterol sulfate and lists a number of life-threatening conditions that could result
from overdosage, including cardiovascular and central nervous system reactions.

Although the drug labeling information for albuterol sulfate currently cautions against
exceeding the recommended dosage, there are conceivable occasions when a physician
might escalate the dose for a patient depending on the individual’s needs. However,
physicians would not normally start a patient on such a high dosage scale, nor is it a
common dosage regimen. Although these high dosages are not inconceivable, one out
of every seven albuterol sulfate claims reviewed were based on prescriptions exceeding
recommended dosages. This number of beneficiary claims for such an uncommonly
high dosage seems questionable.

Nineteen percent of claims were supported with prescription documents that included
a “PRN” direction, Therefore, as discussed above, we could not determine the exact
number of albuterol sulfate units prescribed for comparison with the dosage
recommended by manufacturers. Depending on the actual dosage the physician
intended to prescribe using the “PRN” direction, our analysis may have underestimated
the percentage of claims with prescriptions for six albuterol sulfate treatments per day.

Bene&a&?s do not we all of the nebulizerdrugsprovidedto them

For twenty-four percent of albuterol sulfate claims, beneficiaries reported that they did
not use all of the nebulizer medication provided to them each month. Almost 33
percent of these claims involved beneficiaries who only used half of their nebulizer
medicine each month; another 44 percent of these claims represented beneficiaries
who used three-quarters of their dosages. For almost half (45 percent) the claims
where non-use of medication was found, beneficiaries reported discarding the unused
supply each month.

While one could argue that beneficiaries were not using all of their nebulizer
medication due to non-compliance, when this non-use is viewed in the context of this
report’s previous findings, other explanations seem more credible. Possible
explanations include: 1) the lack of medical need or clinical effectiveness for the
number and/or dosages of drugs prescribed, and 2) the oversupply of drug products.

QUESTIONABLE BILLING PRACTICES CONTRIBUTE TO IMPROPER
MEDICARE PAYMENTS FOR NEBULIZER THERAPY.

Medicareallowedover $10 millionfor nebulizerequtpnumtwithoutcorrespondingbillings
for nebulizerdrugs.

Medicare allowed over $10 million for nebulizers without corresponding billings for
nebulizer drugs during the 8-month period, April 1, 1994 to November 30, 1994. This
$10 million represents almost 40 percent of the $26 million that Medicare paid for
nebulizer equipment during the 8 months. Two types of nebulizer equipment




                                             9

accounted for 89 percent of the $10 million in improper Medicare allowances:
nebulizer with compressor (code E0570) and ultrasonic nebulizer (code E0575).

According to Medicare DME coverage guidelines, nebulizers are reimbursable only
when beneficiaries with severely impaired breathing use the nebulizers with albuterol
sulfate or other inhalation drugs. If inhalation drugs are not being used with
nebulizers, then the nebulizers should not be paid for by the Medicare program.

More than one-third of beneficiaries (123,400 of 357,000) had billings for nebulizer
equipment without corresponding billings for nebulizer drugs. For 16 percent of
beneficiaries, Medicare paid for 8 months of equipment billings with no corresponding
claims for nebulizer drugs. About half of the beneficiaries had equipment payments
for 1 or 2 months without corresponding drug claims. The remaining beneficiaries had
between 3 and 7 months of claims for nebulizer equipment with no corresponding
drug billings.

Supplienbilkd Medicarefor drugdispensingservicesthey did rwtperforrm

Thirty-six percent of claims for albuterol sulfate involved Medicare payments to

suppliers who did not dispense the drugs to beneficiaries. Instead, these suppliers had

arrangements with pharmacies who actually dispensed the drugs to beneficiaries. For

25 percent of albuterol sulfate claims, suppliers without licensed pharmacy

components billed Medicare not only for the drug but also for the $5.00 dispensing fee

even though they did not dispense the drug to beneficiaries.


Medicare paid an estimated $1.5 million for improper dispensing fee billings between

January 1, 1994 and February 28, 1995. This represents one-third of the total

estimated $4.7 million in albuterol sulfate dispensing fees paid for by Medicare during

the review period.


The payment of both drug allowances and dispensing fees to suppliers who do not

actually provide drugs to beneficiaries conflicts with HCFA’S written policy and

guidelines. Medicare Carriers Manual section 3060 states that “the carrier may pay

assigned benefits only to the physician or other supplier who furnished the service.”

When the policy to pay dispensing fees was introduced, a December 1993 HCFA

memorandum to Medicare administrators and carriers stated that a monthly

dispensing fee for each inhalation drug would be paid “...where pharmacies provide

drugs used in nebulizers.”


Recent revisions to section 3060 of the Medicare Carriers Manual, as outlined in a

HCFA Bureau of Policy Development memorandum dated July 30, 1996, will prohibit

drug and dispensing fee payments to suppliers who do not actually provide drugs





                                           10
directly to beneficiaries. The memorandum explains that the following language will
be included in section 3060.D of the manual:

      In the case of drugs used in conjunction with durable medical equipment
      (DME) or prosthetic devices, the entity that dispenses the drug must furnish it
      directly to the patient for whom a prescription is written. Therefore, those
      drugs cannot be purchased for resale to the beneficiary by any supplier that is
      not the entity which dispenses the drug. Such a supplier may only bill for the
      DME or prosthetic devices. In order for prescription drugs that are used in
      conjunction with DME or prosthetic devices to be covered by Medicare, the
      entity that dispenses the drugs must have a Medicare supplier number, must be
      licensed to dispense the drug in the State in which the drug is dispensed, and
      must bill and receive payment in its own name.

This policy revision should prevent millions of dollars in payments to non-dispensing
suppliers that Medicare has been allowing up to this point.

Some suppliersdid not collectbeneficimycoirmmancepayments.

For 11 percent of the albuterol sulfate claims billed to Medicare, beneficiaries

reported they did not pay the 20 percent coinsurance for their nebulizer medications.

These beneficiaries also reported that they did not have some other form of health

insurance that would cover the coinsurance payments. Since beneficiaries are required

to pay (unless there is financial hardship) 20 percent of the Medicare allowed amount

for services, suppliers who routinely waive this payment are not following Medicare

regulations regarding beneficiary coinsurance.


Routine waiver of the coinsurance amount may constitute a violation of the Medicare

and Medicaid Anti-Kickback provision (42 U.S.C. 1320a-’7b(b)), if the purpose of the

routine waiver is to induce Medicare or Medicaid business. A provider’s routine

waiver of a beneficiary’s obligation to pay may also result in the filing of a Medicare

or Medicaid claim that is considered false because it misrepresents the actual amount

charged for the item or service. Anti-kickback violations and false claims can be

actionable under criminal, civil, and administrative authorities.





                                             11

                   RECOMMENDATIONS


We recommend that HCFA develop a strategy to 1) eliminate the questionable and
abusive billings we encountered in this inspection, and 2) ensure that beneficiaries
requiring nebulizer therapy receive treatments that are appropriate.

As part of this strategy, we urge HCFA to implement a comprehensive coverage and
medical review policy focusing on nebulizer equipment and inhalation drugs. In
concert with these policies, the DMERCS should develop and issue guidelines to
suppliers and pharmacies outlining recommended prescribing practices for inhalation
drugs used with nebulizer equipment. To ensure compliance with the recent Medicare
policy revision prohibiting drug payments to non-dispensing suppliers, the HCFA
should take action to confirm that only appropriately licensed suppliers be permitted
to dispense drugs, bill for dispensing fees, and physically handle drug products. In
addition, the DMERCS could also provide suppliers with a reminder about Medicare
regulations prohibiting the routine waiver of beneficiary coinsurance.

If the recommendations we just outlined had been in place during the 14-month time
period of our review, Medicare could have saved up to $40 million in payments for
questionable nebulizer equipment and drugs. Although this $40 million is an estimate,
we believe it is credible since a more rigorous review of inhalation drug claims by just
one DMERC resulted in savings of nearly $20 million during only a 5-month period.
The savings occurred after DMERC C implemented a review screen for claims
involving both incompatible multiple inhalation drugs and overutilization. The
DMERC took the initiative to implement this screen when concerns about Medicare
payments for inhalation drugs in this region were raised by HCFA and the OIG after
reviewing data compiled by the Statistical Analysis Durable Medical Equipment
Regional Carrier.

Many of the findings presented pertain to abusive and possibly fraudulent practices.
We will refer these matters to the DMERC fraud units responsible for handling such
activities. In addition, we are planning a multi-disciplinary review, including evaluation
and investigation staff, to determine the magnitude of inappropriate multiple nebulizer
drug use as well as the identification of suppliers employing fraudulent or abusive
practices in their Medicare billings.

AGENCY     COMMENTS

The HCFA concurred with our recommendations. They have already taken steps to
institute corrective actions, including revising their policies relating to nebulizer
equipment and drugs which will take effect April 1997. The revised guidelines contain
more stringent requirements and are aimed at curtailing improper billings such as
overutilization and billing for nebulizer equipment without corresponding billings for
nebulizer drugs. To ensure that beneficiaries receive appropriate nebulizer therapy
treatments, HCFA has clarified its guidelines to require that only licensed entities


                                            12
meeting pharmacy standards established by State Boards of Pharmacy be allowed to
dispense and bill for nebulizer drugs. This change, according to HCF~ will prevent
such abusive practices as supplying incompatible multiple drugs and excessive dosages
of drugs.




                                          13

                               APPENDIX                                A


POINT ESTIMATES AND CONFIDENCE                               INTERVALS

The tables below contain statistical estimates presented in the Findings section of this
report. Point estimates and corresponding 95 percent confidence intervals based on
beneficiary and supplier data were computed using standard statistical formulas for a
single-stage stratified random sample. Those based on analyses of data from the
HCFA One Percent DME Claims File were computed using standard statistical
formulas for a simple random sample.


MEDICARE PAID FOR MULTIPLE INHALATION DRUGS THAT WHEN
USED TOGETHER MAY BE HARMFUL TO BENEFICIARIES.

M&care paid $8 millwnfor multiplebeta-adre~”c                     bronchodilatordrugsthatshould
not be takendurihgthe same timeperiod


 Point Estimate                                957.   ConfidenceInterval
I $7,707,533                               I $6,975,119-$8,439,946

M&care paki an addzlional$22 millwnfor drugsthatmay be inapproptite when taken
togethen


IIPoint Estimate                           I   95% ConfidenceInterval                             II
 $22,416,942                                   $21,615,746-$23,218,138

One DMERC accountedfor a dkproptinate                        shareof multiplenebulizerdug
allowances.


1~1                                      ‘oht””te                      95% CkmfideneeInterval

IIDMERC    C share of allowances
                                    ,,
                                         $20,395,724
                                                                   I
                                                                       $19,129,240-$21,662,208
                                                                                                  I
IITotal questionable payments            $30,124,480                   $29,034,195-$31,214,765
                                                                                                  I
 DMERC C pereent of beneficiaries        59.609’o                      54.0990- 65.12%




                                                      A-1

OTHER QUESTIONABLE DRUG PROVISION                               PRACI’ICES         MAY
COMPROMISE BENEFICIARIES’ CARE.

Medicarebenejiciati receivedunitsof albuterolsulfatethatdi#kredfrom amounts
prescribedby ttiphysicians.

                                         11                      I



 ~1
 Units differed from prescription
                                              ‘0’’”-”            I “%””’’””’”-
                                                                   18.28% - 34.60%
                                              26.44%
                                         II                      I


 Units exceeded prescription                  13.27’%0               6.72?Z0- 19.83%
 Units less than prescription                 13.167.                7.00% - 19.33’%0
 Relationship undeterminable             ]]36.30%                I 28.16% - 44.45%

l%wribed dixage levek for some beneficiariesexceedmedicalguidelines.




IIGreater  than or equal to 450 ml
                                         ,,
                                              13.47%
                                                                 I
                                                                     7.24(?ZO
                                                                            - 19.70%
                                                                                                         I
IIPrescribed
  Greater than or equal to 540 ml
              frequency undeterminable
                                         II
                                              9.38%
                                              18.8070
                                                                 I
                                                                     4.67% - 14.10%
                                                                     11.85% - 25.76%
                                                                                                         I
Bene&izries do not use all of the nebukzerdrugsprovidedto then



1]Do not use all nebulizer drugs     II23.63%                  ] 14.50% - 32.75%                   II
I]Use half of nebulizer medicine     II32.53%                  I 9.85% - 55.21%                    II
IIUse three-quarters of drugs        II43.77%                   21.3392.- 66.21%                   II
 Discard unused drugs                    45.35%                 22.87% - 67.83%


QUESTIONABLE BILLING PRACTICES CONTRIBUTE TO IMPROPER
MEDICARE PAYMENTS FOR NEBULIZER THERAPY.

Medicareallbwedover $10 rnililonfor nebulizerequipmentwithoutcorrespondingbilliiqp
for nebulizerdrugs.



IIAllowances for equipment without drugs 1[$10,382,230                 [ $10,031,740-$10,732,720        II
 Total equipment allowances                    II$25,701,454           I $25,169,154-$26,233,753




                                                      A-2

Suppi%mbilledMedicarefor thugdhpensingservicesthey did not perfom•


                                                    Point Estimate        95% Cmfidenee Interval

 Suppliers did not dispense drugs                   36.38%                28.01% - 44.74%

 Suppliers did not dispense drugs but billed        25.449Z0              17.5470-33.3370
 dispensing fees
 Medicare allowances for improper dispensing        $1,525,375            $1,051,899-$1,998,851
 fee billings
 Total Medicare allowances for albuterol            $4,688,024            $4,351,533-$5,024,514
 sulfate dispensing fees

Some suppliersdid not collectbenejicimycoinsurancepayments.


 Point Estimate

 10.9470
                                           I
                                               95% Confidence Interviil

                                               4.05% - 17.83%
                                                                                                   I




                                                   A-3

              ,+S,*vw#,
                           ~.,
        *.+




                Jf
    *                                                                                                 Health Care Financing       Administration
f                                 DEPARTMENT         OF HEALTH        & HUMAN      SERVICES
5--
  “o
   “+
    ~++“.,a                                                                                           The Adm!nlstrator
      >
                                                                                                      Washington,   D.C.        20201




                     DATE:               FEB ‘-6 1997                                    IV
                                                                                      jJ#wd
                                                                 v             J
                     FROM:               Bruce C. Vladeck
                                         Administrator               *


                      SUBJECT:           OffIce of Inspector General (OIG) Draft Report: “Questionable Practices
                                         Involving Nebuhzer Drug Therapy,” (OEI-03-94-00391)


                      TO:                June Gibbs Brown
                                         Inspector General


                          We reviewed the above-referenced report that identified questionable practices relatig           to
                          nebulizer   drug therapy    provided       to Medicare   beneficiaries.

                          Our detailed comments on the report recommendations are attached for your
                          consideration. Thank you for the opportunity to review and comment on this report.

                          Attachment


                          JG—
                          E:
                          mm
                             =
                          DIG-AS —
                          gII;c
                                 325
                          m-a    —
                          DIG-MP_
                          AIG-LC
                          OGCJIG
                          Exccscc z
                          DateW ~
              The Health Care Financing Administration [HCFA) Comments on
                      Office of Inspector General (OIG) Draft Report:
                “Questionable Practices Involving Nebulizer Drug Therarw,>’
                                    (OEI-03-94-00391]



OIG Recommendation

HCFA should eliminate the questionable and abusive billings encountered in this
inspection.

HCFA Response

We concur. HCFA is aware of existing problems in this area of the Medicare program
and took corrective action to ensure that nebulizer drug therapy billings are appropriate.
The durable medical equipment (DME) regional carriers revised the regional medical
review policy (RMRP) for nebulizers and nebulizer drugs. The revised RMRP was
published in the December 1996 DME Regional Carrier Advisory for distribution to all
DME suppliers. The new policy, which becomes effective in April 1997, has more
stringent guidelines that should reduce over-utilization and overfWing for nebulizer drug
therapy equipment and services. It requires that suppliers bill Medicare for nebulizers
and licensed pharmacy entities dispense and bill for nebulizer drugs. The policy also
provides tightened coverage criteria for respiratory diagnoses and requires more specific
coding to be used when billing Medicare for nebulizer therapy. The revised coverage
criteria and coding guidelines will compel the supplier to bill Medicare for the services
that are medically necessary. This will reduce the opportunity for suppliers to upcode.
We anticipate significant savings will result from these actions.

OIG Recommendation

HCFA should ensure that beneficiaries requiring nebulizer therapy receive treatments that
are appropriate.

HCFA Response

We concur. HCFA recently clarified the Medicare Carriers Manual at section 3060.D.
That section places the dispensing and billing for nebulizer drugs under the jurisdiction of
licensed pharmacies that must meet the strict pharmacy practice standards established by
state boards of pharmacy regulations and professional association ethics. We believe
pharmacists’ involvement will ensure appropriate dispensing and prevent overuse of
nebulizer drugs.
